    U.S. DEPARTMENT OF EDUCATION
   OFFICE OF THE INSPECTOR GENERAL




   Review of Year 2000 Compliance for
 Processing, Delivery and Administration
 Of Student Financial Assistance Programs

       Control Number S11-90016
               July 1999



MANAGEMENT INFORMATION REPORT
                   Area Manager
             Washington DC Field Office
                   Review of Year 2000 Compliance for
                Processing, Delivery, and Administration of
                  Student Financial Assistance Programs

                                  TABLE OF CONTENTS

Executive Summary............................................................................................. 1

Review Results ................................................................................................... 5

    ED Completed Implementation of Systems
    Critical to Student Financial Assistance .......................................................... 5

    Y2K Risk Assessment for Critical Systems .................................................... 7

    ED Conducted Extensive Outreach to External Trading Partners,
    But Risks Remain........................................................................................... 9

    ED Needs to Complete and Test
    Contingency Plans......................................................................................... 13

    ED Needs to Establish Controls to
    Ensure Continued Y2K Compliance .............................................................. 16

Recommendations ............................................................................................ 17

Management Response ..................................................................................... 17

Background ...................................................................................................... 18

Objective, Scope and Methodology .................................................................... 19

Exhibit 1: OIG Risk Assessment of Critical Systems .......................................... 22

Appendix A: System Descriptions ..................................................................... 25

Appendix B: Management Response ................................................................. 28
ED OIG Management Information Report S11-90016
Review of Year 2000 Compliance for Processing, Delivery, and Administration of SFA Programs   July 1999



                                       Executive Summary
We reviewed the U.S. Department of Education’s (ED’s) Year 2000 (Y2K) compliance for
processing, delivery, and administration of grant, loan, and work assistance programs. This report is
the second of two Office of Inspector General (OIG) reports concerning the Y2K issue required by
the Higher Education Amendments of 1998 (HEA). In January 1999, OIG published a risk
assessment of the systems and hardware under ED’s management. In our current review, we assessed
the status of 13 mission critical systems critical to the delivery of student financial assistance (SFA)
and reviewed the ED’s progress in addressing risk areas identified in our previous report.
Management Information Reports are intended to provide information for decision-makers and are
not audit or investigative reports.

ED substantially completed implementation and end-to-end testing of its internal systems and has
devoted significant effort to reduce the risk associated with external trading partners and contingency
planning. However, work remains to mitigate continuing risks. We are especially concerned with the
Y2K readiness status of postsecondary institutions. Outreach by Congress is warranted to augment
ED’s extensive attempts to have schools take steps to reduce their risk of Y2K failure. ED will also
need to take steps to 1) reduce the Y2K risks associated with other external trading partners on
whom it must rely, 2) complete and test contingency plans, and 3) establish controls to ensure
continued Y2K compliance.

ED Completed Implementation of Systems Critical to Student Financial Assistance

In assessing the status of ED’s systems’Y2K compliance, we relied on contractors performing
independent verification and validation (IV&V) procedures. We determined that these contractors
were adequately performing the IV&V process and that we could rely on their work. IV&V
documentation indicates that the 13 systems completed validation, except for low-risk issues pending
completion or IV&V review. End-to-end testing between ED systems and with external parties (other
than one-to-one testing with schools, guaranty agencies and their servicers) has been substantially
completed. ED tested its ability to send and receive data from schools, guaranty agencies and their
servicers in a simulated environment and has established test windows through September 1999 to
allow these entities to perform actual one-to-one tests of their electronic interfaces.

The scope of our work did not include sufficient steps for OIG to verify independently the Y2K
compliance of ED’s systems. However, Exhibit 1 presents our risk assessment for the 13 systems
using an adaptation of the Y2K Scorecard approach developed by the MITRE Corporation.

ED Conducted Extensive Outreach to External Trading Partners, but Risks Remain

The SFA delivery process involves a network of external trading parties, including approximately
7000 postsecondary institutions, 6500 lenders and 36 guaranty agencies. Significant Y2K-related
failures at these entities could disrupt the processing, delivery, and administration of grants, loans and
work assistance provided through the SFA programs. ED has implemented extensive outreach efforts
to promote awareness, provide technical assistance, and to learn about progress made by these
entities.

                                                       1
ED OIG Management Information Report S11-90016
Review of Year 2000 Compliance for Processing, Delivery, and Administration of SFA Programs   July 1999




No matter how extensive its outreach efforts, ED cannot ensure that its trading partners will become
Y2K compliant. These entities must take the steps necessary to mitigate Y2K risks for their
organizations. ED is taking steps to understand the readiness of its trading partners and to implement
contingency plans to address potential failures. After analyzing available information on trading
partner readiness, we assessed the risk that Y2K-related failures at lenders, guaranty agencies, and
postsecondary institutions would disrupt the processing, delivery, and administration of the SFA
programs for student beneficiaries.

• Lenders – Low Risk: As of February 1999, approximately 96 percent of depository institutions
  examined by the Federal Financial Institutions Examination Council were making satisfactory
  progress.

• Guaranty Agencies – Low to Moderate Risk: During six OIG site visits from August 1998 to
  March 1999, we noted issues regarding data exchanges, contingency planning and
  systems/servicer changes. ED’s Guarantor and Lender Oversight Service (GLOS) conducted site
  visits in early 1999 at seven agencies and concluded that the agencies’Y2K risk to the Federal
  Family Education Loan Program ranged from low to moderate. Presently, GLOS and OIG plan to
  conduct initial site visits at an additional nine guaranty agencies and one servicer and will revisit
  two agencies.

• Postsecondary Institutions – High Risk: There is insufficient information to assess accurately
  the readiness of postsecondary institutions, and the limited information available indicates that
  they may be at risk. ED is conducting a voluntary survey of 6,614 schools. Preliminary results
  from 653 or 9.9 percent of the survey population show that 46 percent of respondents do not
  have a written Y2K plan. Additionally, 42 percent did not expect to complete their
  implementation phase until after September 30, 1999. These early survey results raise a concern
  that a significant percentage of postsecondary institutions may be at risk for Y2K-related failures.
  Other factors that support our assessment of high risk include low participation by schools in
  ED’s testing windows and concerns we have about the readiness of school servicers.

ED Needs to Complete and Test Contingency Plans

ED has made substantial progress in developing its business continuity and contingency plans (BCCP)
and submitted preliminary plans to OMB on March 31, 1999. ED revised and resubmitted its BCCP
on June 15, 1999, the date initially required by OMB. The current BCCP contains plans for eight SFA
business processes as well as plans for ED’s network operations (EDNET) and its Central Automated
Processing System (EDCAPS). To prevent disruption of the SFA delivery process, however, ED will
need to continue its efforts to develop, test and refine its plans. Additionally, ED will need to
complete prerequisite actions in 1999, resolve policy decisions regarding waivers of statutes and
regulations, and ensure adequate funding for implementation of the plans.

ED Needs to Establish Controls to Ensure Continued Y2K Compliance

ED must ensure that existing and new systems continue to be Year 2000 compliant. The Y2K Project

                                                       2
ED OIG Management Information Report S11-90016
Review of Year 2000 Compliance for Processing, Delivery, and Administration of SFA Programs   July 1999



Team distributed guidance for maintaining Year 2000 compliance for systems and data exchanges.
This guidance requires that all major releases of software or hardware upgrades for existing systems
and all new systems must undergo a complete set of Year 2000 validation tests prior to acceptance.
We found that the first two phases of the new RFMS system were implemented before complete Y2K
tests were conducted. Implementing systems before they are validated increases the risk that ED’s
systems will not accurately process, deliver and administer the SFA programs. In the case of RFMS,
the Y2K tests are now being completed

ED’s guidance on maintaining Year 2000 compliance states that principal offices will become fully
responsible for Year 2000 compliance of systems under their cognizance. The guide does not define
an oversight role for the Y2K Project Team in the continued certification of systems and does not
require the use of IV&V. These oversight functions were key controls established in the Y2K Project
Management Plan for the original certification of mission critical systems.

Recommendations

We recommend that ED:

• Continue outreach activities to communicate Y2K issues and strategies to all sectors of the
  postsecondary education community;

• Require all postsecondary institutions to test their data exchanges and ensure that all guaranty
  agencies successfully complete the required testing with ED;

• Complete, test and refine its business continuity and contingency plans. Steps include soliciting
  and addressing industry comments, securing adequate resources to implement the plans,
  completing detail action plans, performing actions required prior to December 31, and
  implementing risk mitigation plans;

• Implement a process for validating continued Y2K compliance of critical systems when
  modifications are made. The process should include oversight by the Y2K Project Management
  Team; and

• Initiate controls to limit system changes to those considered essential by the Information
  Technology Investment Review Board for the period September 1999 to March 2000.

We also recommend that Congress:

• Promote Y2K awareness at postsecondary institutions in their districts and states; and

• Seek to build constituent support groups to help lagging institutions achieve Y2K readiness.




                                                       3
ED OIG Management Information Report S11-90016
Review of Year 2000 Compliance for Processing, Delivery, and Administration of SFA Programs   July 1999



Management Response

Management agreed with the report’s observations about areas that require ongoing efforts by ED.
Management’s response, included as Appendix B, addresses ED’s plans for implementing our
recommendations.




                                                       4
ED OIG Management Information Report S11-90016
Review of Year 2000 Compliance for Processing, Delivery, and Administration of SFA Programs   July 1999




                                                             Review Results
                                  We reviewed the U.S. Department of Education’s (ED’s) Year
                                  2000 (Y2K) compliance for processing, delivery, and
                                  administration of grant, loan, and work assistance programs. We
                                  assessed the status of 13 mission systems critical to the student
                                  financial assistance (SFA) programs and reviewed ED’s progress in
                                  addressing risk areas identified in our January 1999 risk assessment
                                  of systems and hardware under ED’s management. Management
                                  Information Reports are intended to provide information for use of
                                  decision-makers and are not audit or investigative reports.

                                  ED substantially completed implementation and end-to-end testing
                                  of its internal systems and has devoted significant effort to reduce
                                  the risk associated with external trading partners and contingency
                                  planning. However, work remains to mitigate continuing risks. We
                                  are especially concerned with the Y2K readiness status of
                                  postsecondary institutions. Outreach by Congress is warranted to
                                  augment ED’s extensive attempts to have schools take steps to
                                  reduce their risk of Y2K failure. ED will also need to take steps to
                                  1) reduce the Y2K risks associated with other external trading
                                  partners on whom it must rely, 2) complete and test contingency
                                  plans, and 3) establish controls to ensure continued Y2K
                                  compliance.

                                       ED Completed Implementation of Systems
                                        Critical to Student Financial Assistance
                                  ED reports that it has completed renovation, validation and
                                  implementation of the 13 systems critical for student financial
                                  assistance delivery before the March 31, 1999 deadline set by
                                  Office of Management and Budget (OMB) and the Higher
                                  Education Act. These systems include:

                                  1.   Direct Loan Central Database (DLCD)
                                  2.   Direct Loan Origination System (DLOS)
                                  3.   Direct Loan Servicing System (DLSS)
                                  4.   Postsecondary Education Participants System (PEPS)
                                  5.   Education’s Central Automated Processing System (EDCAPS)
                                  6.   Campus Based System (CBS)
                                  7.   National Student Loan Data System (NSLDS)
                                  8.   Pell Grant Recipients Financial Management System (PELL)
                                  9.   Title IV Wide Area Network (TIVWAN)

                                                       5
ED OIG Management Information Report S11-90016
Review of Year 2000 Compliance for Processing, Delivery, and Administration of SFA Programs    July 1999



                                  10. Central Processing System (CPS)
                                  11. Education’s Local Area Network (EDNET)
                                  12. Multiple Data Entry System (MDE)
                                  13. Federal Family Education Loan Program System (FFEL)

OIG Relied on Work                In assessing the status of ED’s systems, we relied on the work of
of Independent                    contractors performing independent verification and validation
Verification and                  (IV&V) procedures. We determined that these contractors were
Validation                        adequately performing the IV&V process and that we could rely on
Contractors                       their work in conducting our risk assessment. IV&V
                                  documentation indicates that the 13 implemented systems
                                  completed renovation and validation except for low risk issues
                                  pending completion or IV&V review. In May 1999, GAO reported
                                  that it reviewed the change control/quality control process, test
                                  plans and test results for NSLDS, FFEL, and PELL systems. [Year
                                  2000 Computing Challenge: Education Taking Needed Actions
                                  But Work Remains, GAO/T-AIMD-99-180, May 12]. GAO stated
                                  that it found adequate documentation supporting baseline,
                                  regression, and future date testing for three systems it selected. The
                                  scope of our work did not include sufficient steps for OIG to verify
                                  independently the Y2K compliance of ED’s systems.

End-to-end Testing is             In our January 1999 report we noted that systems reported as
Substantially                     implemented were independently validated and put into production,
Complete                          but had not completed end-to-end testing. In Year 2000
                                  Computing Crisis: An Assessment Guide [GAO/AIMD-10.1.14]
                                  and Year 2000 Computing Crisis: A Testing Guide [GAO/AIMD-
                                  10.1.21] GAO recommends completion of end-to-end testing
                                  before systems are considered implemented. End-to-end testing
                                  between ED systems, and with external parties (except schools,
                                  guaranty agencies and their servicers), has been substantially
                                  completed except for a few exchanges affecting the Direct Loan
                                  Origination System that are scheduled to occur by July 1999.

                                  ED tested electronic data exchanges with schools, guaranty
Postsecondary                     agencies and their servicers by simulation, testing the systems’
Institution                       ability to send and receive data from external trading partners in a
Participation in                  simulated environment. ED has established test windows through
Testing Windows Has               September 1999 to allow these entities to perform actual tests of
Been Low                          their electronic interfaces. Only 15 schools participated in the first
                                  testing window of the DLOS that closed on May 21, 1999. Only
                                  three of the schools passed the tests. In an effort to increase
                                  participation, ED sent letters to approximately 50 higher education
                                  associations requesting that they urge their members to participate
                                  in testing with ED.

                                                       6
ED OIG Management Information Report S11-90016
Review of Year 2000 Compliance for Processing, Delivery, and Administration of SFA Programs   July 1999




                                                       Y2K Risk Assessment
                                                       For Critical Systems
Risk of ED’s Systems
and Hardware Not                  Overall, we conclude that the risk of ED’s systems and hardware
Being Ready for Y2K               not being ready for Y2K has been reduced to low. In January 1999,
Has Diminished                    we provided a risk assessment for the 13mission systems critical to
                                  the SFA programs. Exhibit 1 presents our latest risk assessments
                                  for these systems after analysis of documentation we received
                                  through June 21, 1999. We assessed the level of risk outstanding
                                  for each of the individual systems based on a review of the
                                  following factors:

                                  •   status of commercial off the shelf (COTS) software products;
                                  •   status of the network and operating environment;
                                  •   status of external interfaces;
                                  •   time and resources available;
                                  •   status of the validation process; and
                                  •   status of the implementation process.

Summary Risk                      We describe our methodology and source of supporting data in the
Provides OIG’s                    Scope and Methodology section of this report. Appendix A
Overall Evaluation                provides a description of the 13 systems included in our
for Individual                    assessment. The Summary Risk column provides our overall
Systems                           evaluation of the level of risk associated with the individual
                                  systems. The following descriptions provide a guide for
                                  interpreting the level of summary risk:

                                  BLUE:            The system completed implementation and
                                                   appropriate end-to-end testing. IV&V has reviewed
                                                   resolution of all identified issues.

                                  GREEN:           The system completed implementation and made
                                                   significant progress in end-to-end testing. ED is
                                                   resolving low risk issues identified by IV&V and/or
                                                   system needs to complete end-to-end testing.
                                                   Remaining issues are scheduled for completion
                                                   before September 30, 1999.

                                  YELLOW:          The system completed implementation and IV&V.
                                                   However, the system requires monitoring because
                                                   IV&V has identified moderate risk issues and/or
                                                   there has not been significant progress in end-to-end
                                                   testing. Remaining issues are scheduled for

                                                       7
ED OIG Management Information Report S11-90016
Review of Year 2000 Compliance for Processing, Delivery, and Administration of SFA Programs     July 1999



                                                   completion before September 30, 1999.

                                  RED:             The system has not completed implementation
                                                   and/or there are significant unmitigated risks that
                                                   could affect program processing, delivery or
                                                   administration.

                                  There were no systems meeting our summary risk criteria for
Summary Risks for                 YELLOW or RED. The following three systems had a summary
All Systems Were                  risk of BLUE: CPS, MDE, and TIVWAN. The remaining ten
Rated GREEN or                    systems had a summary risk rating of GREEN.
BLUE
                                  Although we assessed the summary risk as GREEN for the DLOS
OIG Noted Pending                 and PELL systems, we did identify conditions meriting a YELLOW
Issues Related to                 assessment for one of the risk columns:
DLOS and PELL
                                   • DLOS: ED did not complete testing for several data
                                     exchanges. These tests were originally scheduled for March
                                     1999 and ED postponed them to July 1999.

                                   • PELL: ED implemented two phases of its new RFMS system
                                     before completion of Y2K testing. These tests are currently
                                     being completed.

                                  Validation of the EDNET system was primarily based on vendor
IV&V Recommended                  certifications of the hardware and software supporting ED’s
Interoperability Tests            network. The final IV&V report for EDNET reported that all
for EDNET                         validation issues had been resolved, however the contractor
                                  recommended that ED conduct interoperability tests as an added
                                  measure to reduce risk further. For purposes of our risk
                                  assessment, we considered the system validated. However, we
                                  assessed the interoperability tests as an issue related to the network
                                  and operating environment that remains to be tracked. We
                                  assessed a summary risk of GREEN for EDNET until the
                                  interoperability tests are successfully completed. ED requested
                                  approximately $1.1 million in emergency funding from OMB to
                                  create a test facility and run the tests, however OMB did not
                                  approve the funds. OMB recommended that ED lockdown the
                                  current system and test over the July 4, 1999 weekend. ED
                                  previously decided against a test on its production environment and
                                  is now determining its best course of action to address the IV&V
                                  recommendation.




                                                       8
ED OIG Management Information Report S11-90016
Review of Year 2000 Compliance for Processing, Delivery, and Administration of SFA Programs   July 1999



                                   ED Conducted Extensive Outreach to External
                                       Trading Partners, but Risks Remain

ED Cannot Ensure                  The SFA delivery process involves a network of external trading
the Y2K Compliance                parties including approximately 7000 postsecondary institutions,
of SFA Trading                    6500 lenders, and 36 guaranty agencies. Significant Y2K-related
Partners                          failures at these entities could disrupt the delivery of the SFA
                                  programs and put Federal funds at risk. No matter how extensive
                                  its outreach efforts, ED cannot ensure that its trading partners will
                                  become Y2K compliant. These entities must take the steps
                                  necessary to mitigate Y2K risks for their organizations. There
                                  remains a risk that these entities might have Y2K-related system
                                  failures that affect their ability to perform their role in the SFA
                                  program delivery process.

                                  We reviewed ED’s outreach and oversight efforts and assessed the
                                  risks that failures at lenders, guaranty agencies and postsecondary
                                  institution would disrupt the processing, delivery, or administration
                                  of the SFA programs. We are especially concerned with the Y2K
                                  readiness status of postsecondary institutions, which we believe
                                  pose the greatest risk. Outreach by Congress is warranted to
                                  augment ED’s extensive attempts to have schools take steps to
                                  reduce their risk of Y2K failure.

                                  ED is taking steps to understand the readiness of its trading
                                  partners and to implement contingency plans to address potential
                                  failures. ED has performed extensive outreach efforts to promote
                                  awareness, provide technical assistance, and to learn about progress
                                  made by these entities. Additionally, ED has executed oversight
                                  over progress made at guaranty agencies.

Outreach to                       ED serves as the lead agency of the Education Sector Workgroup
postsecondary                     of the President’s Council on Year 2000 Conversion. Outreach
community                         efforts directed toward the postsecondary education community by
                                  ED and the Workgroup include:

                                  • Dear Colleague Letters: ED issued Dear Colleague Letters to
                                    schools describing the Y2K issue and their responsibilities.

                                  • Conference Participation: ED is promoting awareness of
                                    Y2K issues at industry conferences including those sponsored
                                    by the National Association of College and University
                                    Business Officers (NACUBO) and the National Association of
                                    Student Financial Aid Administrators (NASFAA).

                                                       9
ED OIG Management Information Report S11-90016
Review of Year 2000 Compliance for Processing, Delivery, and Administration of SFA Programs   July 1999




                                  • Focus Groups – First Round: ED sponsored focus groups for
                                    postsecondary institutions at sites throughout the country
                                    during the period May 1998 to September 1998. The first
                                    round of focus groups held were designed to 1) understand the
                                    status of participants, 2) understand the obstacles faced by
                                    organizations, 3) raise awareness of issues with participating
                                    schools and 4) get input on how ED could best assist schools.

                                  • Year 2000 Readiness Kit: In November 1998, ED published
                                    and distributed the Year 2000 Readiness Kit: A Compilation of
                                    Y2K Resources for Schools, Colleges, and Universities. The
                                    kit provides approaches and techniques for responding to the
                                    Year 2000 challenge.

                                  • Interactive Teleconference: On December 7, 1998, ED
                                    hosted an interactive teleconference titled Meeting the Year
                                    2000 Computer Challenge: Schools, Colleges and the
                                    Millennium Bug.

                                  • Focus Groups – Second Round: ED’s second round of focus
                                    groups is concentrated toward assisting schools in four sectors:
                                     1) Historically Black Colleges and Universities, 2) Hispanic
                                    Serving Institutions, 3) Tribally controlled colleges and 4) the
                                    100 schools receiving the largest amounts of student financial
                                    assistance. These focus groups concentrate on contingency
                                    planning, the importance of testing and resources available.

                                  • Surveys of Postsecondary Institutions: ED conducted a
                                    survey of Direct Loan Program schools from July to August
                                    1998 and received the results of a survey of community colleges
                                    conducted by the American Association of Community
                                    Colleges. ED is currently conducting a survey of 6614
                                    postsecondary institutions attended by students receiving
                                    financial assistance. This survey will be completed in July 1999.


                                  • Year 2000 Website: ED maintains a Y2K website at
                                    http://www.ed.gov/offices/OCIO/year/ that provides
                                    information on ED’s progress and provides tools and resources
                                    for addressing the Y2K issue.

                                  • Testing Windows: ED has provided opportunities for
                                    postsecondary institutions to test their data exchanges with ED


                                                      10
ED OIG Management Information Report S11-90016
Review of Year 2000 Compliance for Processing, Delivery, and Administration of SFA Programs   July 1999



                                      during voluntary test windows scheduled through September
                                      1999. Participation by schools in the voluntary test windows
                                      has been low. For example, only 15 schools participated in the
                                      first testing window of the DLOS that closed on May 21, 1999.
                                      Only 3 of the schools successfully completed the tests. In an
                                      effort to increase participation, ED sent letters to approximately
                                      50 higher education associations requesting that they urge their
                                      members to participate in testing with ED.

Outreach and                      ED has also addressed the readiness of lenders and guaranty
Oversight of Lenders              agencies. Outreach and oversight activities directed towards these
and Guaranty                      organizations include:
Agencies
                                  • Dear Colleague Letters: ED issued Dear Colleague Letters to
                                    guaranty agencies and lenders describing the nature of the Y2K
                                    issue and the entities’responsibilities.

                                  • Conferences and Focus Groups: ED has participated at
                                    conferences and focus groups for lenders and guaranty agencies
                                    including the annual conference of the National Council of
                                    Higher Education Loan Programs (NCHELP).

                                  • Financial Institutions Sector Workgroup: ED participates
                                    as a member of the Financial Institutions Sector Workgroup of
                                    the President’s Council on Year 2000 Conversion. ED has not
                                    surveyed the readiness of lenders directly, but relies on
                                    information from bank examinations performed by agencies of
                                    the Federal Financial Institutions Examination Council.

                                  • Oversight of Guaranty Agencies: ED’s Guarantor and
                                      Lender Oversight Service (GLOS) surveyed all 36 agencies
                                      about their Y2K readiness and required agencies to submit their
                                      Y2K readiness plans, contingency plans, and certification of
                                      compliance. Additionally, GLOS hired a contractor to survey
                                      all 36 guaranty agencies and perform on-site reviews at a
                                      sample of guaranty agencies. OIG also conducted reviews at six
                                      guaranty agencies.
OIG Assessment of                 After analyzing available information on trading partner readiness,
Risks Posed by                    we assessed the risk that failures at lenders, guaranty agencies, and
Lenders, Guaranty                 postsecondary institutions would disrupt the processing, delivery,
Agencies and                      and administration of the SFA programs for student beneficiaries.
Postsecondary                     Except for OIG’s on-site work at guaranty agencies and school
Institutions                      servicers, our analysis is based on information provided by ED.

                                  Lenders – Low Risk

                                                      11
ED OIG Management Information Report S11-90016
Review of Year 2000 Compliance for Processing, Delivery, and Administration of SFA Programs    July 1999




                                  ED participates in the Financial Institutions Sector Workgroup of
                                  the President’s Council on Year 2000 Conversion. The Workgroup
                                  reported that as of February 28, 1999, approximately 96 percent of
                                  depository institutions and credit unions examined by the Federal
                                  Financial Institutions Examination Council were making
                                  “satisfactory” progress.

                                  Guaranty Agencies – Low to Moderate Risk

                                  During six OIG site visits from August 1998 to March 1999, we
                                  found agencies in varying stages of Y2K preparation and noted
                                  issues regarding data exchanges, contingency planning and
                                  systems/servicer changes. A contractor hired by ED’s Guarantor
                                  and Lender Oversight Service conducted site visits in early 1999 at
                                  seven agencies and concluded that the agencies’Y2K risk to the
                                  Federal Family Education Loan Program ranged from low to
                                  moderate. ED is implementing recommendations made by OIG to
                                  reduce risk associated with Guaranty Agencies. For example, ED
                                  has required Guaranty Agencies to test their exchanges with ED
                                  and is developing guidance for end-to-end testing and contingency
                                  planning. During June through August 1999, GLOS and OIG plan
                                  to conduct initial site visits at an additional nine guaranty agencies
                                  and one servicer and will revisit two agencies.

                                  Postsecondary Institutions – High Risk

                                  We assess the risk as high because there is insufficient information
                                  to assess adequately the readiness of postsecondary institutions and
                                  the limited information available indicates that they may be at risk.
                                  The data gathered from the two surveys completed in 1998 is now
                                  dated and was not representative of the entire population of schools
                                  participating in the SFA programs.

                                  ED is conducting a voluntary survey of 6,614 postsecondary
                                  institutions. Although the survey has not been completed,
                                  preliminary results from 653 or 9.9 percent of the survey
                                  participants may indicate potential risks. As of June 11, 1999, 46
                                  percent of the 653 respondents indicated that they did not have a
                                  written plan for achieving Y2K compliance. Additionally, 42
                                  percent reported that they did not expect to complete their
                                  implementation phase until after September 30, 1999. These early
                                  survey results raise a concern that a significant percentage of
                                  postsecondary institutions may be at risk for Y2K-related failures.


                                                      12
ED OIG Management Information Report S11-90016
Review of Year 2000 Compliance for Processing, Delivery, and Administration of SFA Programs    July 1999



                                  Other factors that support our assessment of high risk include the
                                  low participation by schools in ED’s voluntary testing windows and
                                  concerns we have about the readiness of school servicers. Only 15
                                  schools participated in ED’s first testing window for DLOS.
                                  Recent work we performed at school servicers indicates that some
                                  may not be adequately addressing the Y2K issue. One large
                                  servicer did not have a Y2K plan and did not begin a Y2K project
                                  until after we contacted it to announce our planned visit.


                                                   ED Needs to Complete and
                                                    Test Contingency Plans

Substantial Progress              OIG monitored the Office of Student Financial Assistance
Made in Developing                Program’s (OSFAP) efforts to develop Business Continuity and
Business Continuity               Contingency Plans (BCCP) for core business processes affecting
and Contingency                   the processing, delivery and administration of the SFA programs.
Plans                             We also gained an understanding of the progress made in
                                  developing contingency plans for the EDNET and EDCAPS
                                  systems. ED has made substantial progress in developing its
                                  business continuity and contingency plans (BCCP) and submitted
                                  preliminary plans to OMB on March 31, 1999. The plans were
                                  further refined and resubmitted on June 15, 1999, the date plans
                                  were initially required by OMB Memorandum M-99-16. To
                                  prevent disruption of the SFA delivery process, however, ED will
                                  need to continue its efforts to develop, test and refine its plans.

ED Expects to Modify              ED’s current BCCP contains plans for eight SFA business
Plans to Address                  processes. These plans are not final and ED expects to modify them
Industry Comments                 as it further consults with business partners and identifies changes
and Testing Results               required as a result of testing. Additionally, ED will need to
                                  complete action items scheduled during 1999 to enable
                                  implementation of the plans in the event of Y2K-related failures.

                                  OSFAP began its contingency planning process in August 1998.
                                  OSFAP assembled teams to prepare plans for the following eight
                                  critical business processes:

                                  •   Student Aid Application and Eligibility Determination;
                                  •   Student Aid Origination and Disbursement Process;
                                  •   Student Enrollment Tracking and Reporting;
                                  •   FFEL Lender and Guaranty Agency Payments;
                                  •   Repayment and Collection;
                                  •   Institutional Eligibility and Monitoring;

                                                      13
ED OIG Management Information Report S11-90016
Review of Year 2000 Compliance for Processing, Delivery, and Administration of SFA Programs   July 1999



                                  • Customer Service and Communication; and
                                  • FFEL Origination, Disbursement, Repayment and Collection.


                                  Similar efforts were established by the Office of Chief Financial and
                                  Chief Information Officer for the development of BCCPs for
                                  EDNET and EDCAPS.

ED Follows GAO                    The plans are being developed using the four-phase process
Guidance                          recommended by GAO in Year 2000 Computing Crisis: Business
                                  Continuity and Contingency Planning [GAO/AIMD-10.1.19]. The
                                  phases include initiation, business impact analysis, contingency
                                  planning and testing. OIG provided advisory and assistance services
                                  to the contingency planning teams developing the plans by
                                  participation at team meetings and providing comments on draft
                                  plans.

ED Must Complete                  We reviewed the March 1999 BCCPs for the SFA core business
and Execute BCCP                  processes and recommended that OSFAP revise their test plans to
Test Plans                        ensure they were comprehensive. We recommended that the teams
                                  provide more detailed descriptions of testing procedures, describe
                                  how test data will be developed, and review cases where testing
                                  was not planned. Additionally, we noted that the number of planned
                                  test transactions might not provide an adequate basis for
                                  determining the accurateness of the alternative procedures. OSFAP
                                  considered our comments and made changes to the plans submitted
                                  on June 15 to OMB. We have been informed that OSFAP plans to
                                  hire a contractor to review the adequacy of test plans; facilitate and
                                  observe the testing; and evaluate the results of the testing.

                                  The EDCAPS plan was tested during March 1999 using a Desktop
                                  approach. Staff members role played a simulated situation
                                  performing the manual preparation of forms and spreadsheets and
                                  the physical passing of information among offices. This testing did
                                  not include testing the ability to process high volumes of
                                  transactions. The EDNET plan was preliminarily tested by a
                                  walkthrough of the plan’s assumptions, roles, and responsibilities.
                                  The EDNET systems manager is responsible for developing a
                                  detailed test plan for each class of failure scenario and expects to
                                  complete testing by September 30, 1999.

Other Required                    In addition to testing, OSFAP needs to take additional actions
Actions                           before December 31, 1999 to ensure that the BCCPs are complete
                                  and ready to be implemented. We noted the following actions that
                                  need to be taken:

                                                      14
ED OIG Management Information Report S11-90016
Review of Year 2000 Compliance for Processing, Delivery, and Administration of SFA Programs   July 1999




                                  • Complete Prerequisite Actions: Some of the plans include
                                    prerequisite actions that must be completed including the
                                    development of detailed procedures, the procurement or
                                    modification of contracts, training, and the execution of risk
                                    mitigation strategies. ED will need to monitor the plans to
                                    ensure that required actions are taken.

                                  • Resolve Policy Decisions: The plans include waivers of
                                    statutes or regulations that may need to be approved. One
                                    example includes ED’s plan to prefund institutions in December
                                    1999, which has not been approved by OMB. OSFAP informed
                                    us that they also expect representatives from the FFEL
                                    community to present proposals to ED for waivers of statutes
                                    and regulations.

                                  • Complete Cost Estimates and Secure Funding: In our
                                    report Funding the Year 2000 Conversion, A Report on ED’s
                                    Y2K Cost Estimates [Report Number 11-80011, December
                                    1998] we recommended that ED coordinate a funding strategy
                                    to ensure that costs, including contingencies, are sufficiently
                                    funded. In June 1999, OSFAP provided OIG with a
                                    contingency plan cost estimate showing total anticipated costs
                                    for each business process. OSFAP estimated the need for
                                    approximately $1.7 million in fiscal year 2000 to fund
                                    implementation of the plans. OIG has not reviewed the
                                    reasonableness of this estimate, but has requested supporting
                                    documentation. The EDNET and EDCAPS contingency plans
                                    do not include cost estimates. ED needs to complete cost
                                    estimates for implementing the contingency plans and ensure
                                    that funding is available.



                                      ED Needs to Establish Controls to Ensure
                                           Continued Y2K Compliance
                                  Although ED completed implementation of the 13 critical systems
                                  involved in SFA delivery, it must ensure that existing and new
                                  systems continue to be Year 2000 compliant. Systems components
                                  frequently change as new software versions are released, existing
                                  software is replaced, hardware is upgraded, and as new systems are
                                  developed to meet changing management and legislative
                                  requirements. ED has systems development initiatives and systems
                                  enhancements planned for 1999 that must be monitored to ensure

                                                      15
ED OIG Management Information Report S11-90016
Review of Year 2000 Compliance for Processing, Delivery, and Administration of SFA Programs   July 1999



                                  they do not negatively affect its Y2K readiness.

New RFMS                          In February 1999, the Y2K Project Team distributed guidance for
Implemented Before                maintaining Year 2000 compliance for systems and data exchanges.
Y2K Tests Completed                This guidance includes the requirement that all major releases of
                                  software or hardware upgrades for systems, and all new systems,
                                  must undergo a complete set of Year 2000 validation tests prior to
                                  acceptance. We found that the first two phases of the new
                                  Recipient Financial Management System (RFMS) system were
                                  implemented before complete Y2K tests were conducted.
                                  Implementing systems before they are validated increases the risk
                                  that ED’s systems will not accurately process, deliver and
                                  administer the SFA programs. In the case of RFMS, the Y2K tests
                                  are now being completed, however ED should establish controls to
                                  ensure that systems are validated before being put into production.
Guidance for
Maintaining Y2K                   ED’s guidance on maintaining Year 2000 compliance states that
Compliance Should                 principal offices will become fully responsible for Year 2000
be Improved                       compliance of systems under their cognizance. The guide does not
                                  define an oversight role for the Y2K Project Team in the continued
                                  certification of systems and hardware nor require the use of IV&V.
                                   These oversight and review functions were key controls
                                  established in the Y2K Project Management Plan for the original
                                  certification of mission critical systems. We believe that ED should
                                  implement these controls for ensuring continued compliance of
                                  critical systems.




                                                           Recommendations

                                  We recommend that ED:

                                  • Continue outreach activities to communicate Y2K issues and
                                    strategies to all sectors of the postsecondary education
                                    community;

                                  • Require all postsecondary institutions to test their data
                                    exchanges and ensure that all guaranty agencies successfully
                                    complete the required testing with ED;


                                                      16
ED OIG Management Information Report S11-90016
Review of Year 2000 Compliance for Processing, Delivery, and Administration of SFA Programs   July 1999



                                  • Complete, test and refine its business continuity and
                                    contingency plans. Steps should include soliciting and
                                    addressing industry comments, securing adequate resources to
                                    implement the plans, completing detail action plans, performing
                                    actions required prior to December 31, and implementing risk
                                    mitigation plans;

                                  • Implement a process for validating continued Y2K compliance
                                    of critical systems when modifications are made. The process
                                    should include oversight by the Y2K Project Management
                                    Team; and

                                  • Initiate controls to limit system changes to those considered
                                    essential by the Information Technology Investment Review
                                    Board for the period September 1999 to March 2000.

                                  We also recommend that Congress:

                                  • Promote Y2K awareness at postsecondary institutions in their
                                    districts and states; and

                                  • Seek to build constituent support groups to help lagging
                                    institutions achieve Y2K readiness.

                                                      Management Response
                                  Management agreed with the report’s observations about areas that
                                  require ongoing efforts by ED. Management’s response, included
                                  as Appendix B, addresses ED’s plans for implementing our
                                  recommendations.


                                                                Background
HEA Requirements                   This Year 2000 readiness report is the second of two OIG reports
Concerning Y2K                     concerning the Year 2000 issue required by the Higher Education
                                   Amendments of 1998 (HEA). In January 1999, OIG published a
                                   risk assessment of the systems and hardware under ED’s
                                   management. This report fulfils the requirement to report on the
                                   results of our review of ED’s Year 2000 compliance for processing,
                                   delivery, and administration of grant, loan, and work assistance
                                   programs.

                                   The HEA required the Secretary of Education to “take such actions

                                                      17
ED OIG Management Information Report S11-90016
Review of Year 2000 for Processing, Delivery, and Administration of SFA Programs              July 1999

                                  as necessary to ensure that all internal and external systems,
                                  hardware, and data exchange infrastructure administered by ED
                                  that are necessary for the processing, delivery, and administration
                                  of the grant, loan and work assistance are Year 2000 compliant by
                                  March 31, 1999, such that there will be no business interruption
                                  after December 31, 1999.” This deadline for systems supporting
                                  higher education programs is consistent with the Office of
                                  Management and Budget’s requirement that agencies complete
                                  their Y2K compliance for all systems by March 31, 1999.

Results of OIG Y2K                The Y2K issue arises from the inability of computer systems to
Risk Assessment                   store or process dates beyond December 31, 1999. Computer
                                  systems that use a two digit date field (i.e. “99” for the year 1999)
                                  may not be able to recognize “00” as the year 2000. Without
                                  renovation, these systems may fail or produce erroneous results.
                                  ED is currently taking steps to mitigate the risk of the Year 2000
                                  (Y2K) issue affecting its computer systems and programs.

                                  In January 1999, OIG reported that the risk of ED’s systems and
                                  hardware not being ready for Y2K had been significantly
                                  diminished. At the time, 10 of the 13 systems critical in the
                                  delivery of SFA had been reported by ED as renovated, validated
                                  and implemented. The remaining 3 systems were expected to be
                                  implemented by the March 31, 1999 deadline.

                                  We identified four areas of risk that warranted continued
                                  monitoring. These areas included:

                                  • End-to-End Testing: ED’s end-to-end test plan appeared
                                    complete and was in the process of being implemented, but was
                                    not expected to be complete until Summer 1999.
                                  • External Trading Partners: ED had increased the SFA
                                    community’s Y2K awareness and invited all institutions to test
                                    their data exchanges during “windows” of opportunity. Despite
                                    this effort, ED should anticipate that some trading partners may
                                    not achieve Y2K compliance.

                                  • Contingency Planning: ED expected to have contingency plans
                                    established by March 31, 1999, and tested by July 1, 1999.

                                  • New Systems/Functionality: - ED had several development
                                    initiatives and systems enhancements planned for 1999 that
                                    must be monitored to ensure that they do not negatively affect
                                    its Y2K readiness.

                                  In March 1999, OMB upgraded ED to its listing of Tier Three

                                                      18
ED OIG Management Information Report S11-90016
Review of Year 2000 for Processing, Delivery, and Administration of SFA Programs             July 1999

                                  agencies making adequate progress in preparing for the Year 2000.
                                  Until December 1998, OMB classified ED as a Tier One agency not
                                  evidencing adequate progress. In December 1998, OMB upgraded
                                  ED to a Tier Two agency where there was evidence of progress,
                                  but ongoing concern.

                                  Success of ED’s Year 2000 process is critical. Failure to adequately
                                  prepare for the Year 2000 could result in significant disruptions in
                                  the delivery of student assistance, such as the inability to originate
                                  new student loans, pay guaranty agency and lender claims, and
                                  administer education grants. These negative outcomes can be
                                  avoided by ED’s implementation of Year 2000 compliant systems
                                  and by the development of strong contingency plans to ensure
                                  uninterrupted service.

                                             Objective, Scope and Methodology
Report on Y2K
Compliance of Grant,              Our objective was to review ED’s Y2K compliance for processing,
Loan, and Work                    delivery, and administration of grant, loan, and work assistance
Assistance Programs               programs as required by the HEA. We assessed the status of 13
                                  systems critical to the delivery of student financial assistance (SFA)
                                  and reviewed ED’s progress in addressing risk areas identified in
                                  our previous report. Management Information Reports are intended
                                  to provide information for use of decision-makers and are not audit
                                  or investigative reports.
We Identified 13
Systems Critical to               We included 13 of ED’s mission critical system in our assessment.
SFA Delivery                      These systems include eleven SFA program specific systems
                                  operated by the Office of Student Financial Assistance. The
                                  remaining two systems are ED’s financial system and its
                                  Departmentwide network managed by the Chief Information
                                  Officer and Chief Financial Officer. Appendix A provides a listing
                                  of the thirteen systems and their related functions.
MITRE Corporation’s               We used the Y2K Scorecard approach developed by the MITRE
Y2K Scorecard                     Corporation and included on its website as public information. The
                                  MITRE Corporation developed the Y2K Scorecard as a
                                  management tool for providing standard, periodic high level
                                  reporting on the risk that the Year 2000 problems will affect the
                                  missions of an organization’s systems. The Scorecard identifies the
                                  level of risk for a number of risk drivers and it gives a snapshot of
                                  the progress each system has made in resolving its Y2K problems.
                                  The Scorecard uses four color codes to indicate the level of risk.
                                  The color codes, from lower to higher risk are: BLUE, GREEN,
                                  YELLOW and RED. MITRE designed the scorecard to be
                                  adaptable to the needs of the organization and to the specific

                                                      19
ED OIG Management Information Report S11-90016
Review of Year 2000 for Processing, Delivery, and Administration of SFA Programs            July 1999

                                  concerns of the systems used by the organization. We identified risk
                                  drivers affecting the readiness of the SFA systems and defined the
                                  color codes based on progress expected by June 30, 1999. We
                                  define the risk drivers and their color coding in Exhibit 1.
Reliance on the IV&V
Process                           Information supporting our assessments was primarily gathered
                                  from our monitoring of the IV&V process. We determined that
                                  these contractors were adequately performing the IV&V process
                                  and that we could rely on their work in conducting our risk
                                  assessment. To gain this reliance and gather risk information, we:

                                  • Gained an understanding of the IV&V services by reviewing the
                                    contracts and planning documentation and discussing the
                                    process with ED and contractor personnel;

                                  • Observed the IV&V process by attending meetings,
                                    participating in IV&V test visits, and interviewing contractor
                                    staff; and

                                  • Reviewed monthly status reports, system closure plans, draft
                                    and final IV&V reports, and other appropriate documentation.
OIG Procedures for
Reviewing Progress                We assessed the progress made in addressing four risk areas
in Addressing Risk                identified in our January 1999 report: end-to-end testing, external
Areas                             trading partners, contingency planning, and new systems
                                  implementation. We conducted interviews with ED and IV&V




                                                      20
ED OIG Management Information Report S11-90016
Review of Year 2000 for Processing, Delivery, and Administration of SFA Programs         July 1999

                                  employees and reviewed documents supporting ED progress in
                                  these areas, including:

                                  • Monthly and Quarterly Status reports submitted by ED to
                                    OMB;

                                  • Y2K Project documentation, including the ED’s Y2K
                                    management plan, data exchange testing plans and results, draft
                                    contingency plans, and documents disseminated to trading
                                    partners as part of the ED’s outreach efforts;

                                  • ED and GAO testimony concerning ED’s Y2K progress;

                                  Additionally, we evaluated information gathered during other OIG
                                  monitoring and audit efforts including:

                                  • OIG’s Management Information Report Review of Year 2000
                                    Related Risk to Programs Administered under Title IV of the
                                    Higher Education Act [Report Number 11-80014];

                                  • OIG audit reports including: The Status of the U.S.
                                    Department of Education’s Readiness for Year 2000 [Report
                                    Number 11-70011, March 1998] and Funding the Year 2000
                                    Conversion, A Report on ED’s Y2K Cost Estimates [Report
                                    Number 11-80011, December 1998];

                                  • OIG Management Information Report: Year 2000 Readiness at
                                    Guaranty Agencies [Report Number 11-80015] and reviews at
                                    three school servicers.

                                  • OIG attendance at Y2K steering committee meetings conducted
                                    by the Deputy Secretary; and

                                  • OIG participation in ED’s contingency planning teams.




                                                      21
ED OIG Management Information Report S11-90016
Review of Year 2000 for Processing, Delivery, and Administration of SFA Programs                   July 1999


                                      Exhibit 1
                        OIG Risk Assessment of Critical Systems

 System    Principal Summary         COTS        Network &       External    Time and Validation     Implemen-
  Name       Office    Risk         Software     Operating      Interfaces   Resources                 tation
                                                Environment

EDCAPS      OCFO


 EDNET       OCIO


  CBS       OSFAP


  CPS       OSFAP


 DLCD       OSFAP


  DLSS      OSFAP


 DLOS       OSFAP


  FFEL      OSFAP


  MDE       OSFAP


 NSLDS      OSFAP


  PEPS      OSFAP


  PELL      OSFAP


TIVWAN OSFAP




                     BLUE                      GREEN                         YELLOW                 RED




                                                      22
ED OIG Management Information Report S11-90016
Review of Year 2000 for Processing, Delivery, and Administration of SFA Programs                            July 1999


                                              Exhibit 1 (Continued)
Summary Risk: Overall evaluation of the level of risk for individual system based on analysis of following risk factors.

Blue:      System completed implementation and appropriate end-to-end testing. IV&V reviewed resolution of all issues.

Green:     System completed implementation and made significant progress in end-to-end testing. ED is resolving low risk
           issues identified by IV&V and/or system needs to complete end-to-end testing. Remaining issues are scheduled for
           completion by September 30, 1999.

Yellow:    System completed implementation and IV&V, however the system requires monitoring because IV&V identified
           moderate risk issues and/or there has not been significant progress in end-to-end testing. Remaining issues are
           scheduled for completion before September 30, 1999.

Red:       System has not completed implementation and/or there are significant unmitigated risks that could affect program
           processing, delivery, or administration.

COTS Application Software: Risks associated with COTS application software.

Blue:      System meets the “green” criteria, IV&V reviewed COTS documentation and no issues require resolution.

Green:     All COTS application software significant to program delivery have been certified by the manufacturer as compliant,
           and the ED documented this certification in an inventory available for IV&V inspection.

Yellow:    COTS products significant to program delivery have not been certified as compliant or certification documentation
           has not been maintained. Certification or replacement with compliant version is expected.

Red:       COTS products significant to program delivery have not been certified as compliant or certification documentation
           has not been maintained. Certification or replacement with a compliant version isn't expected.

Network and Operating Environment: Risks related to the system’s hardware, operating system(s), and networking
components required for successful operation of system.

Blue:      System meets the “green” criteria, IV&V reviewed the network and operating environment documentation, and there
           are no issues requiring resolution.

Green:     All network and operating environment components significant to program delivery were certified by manufacturer
           as compliant, and ED documented this certification in an inventory available for IV&V inspection.

Yellow:    Some infrastructure components significant to program delivery have not been certified as compliant, or the
           documentation has not been maintained. Certification or replacement with a compliant component is expected.

Red:       At least one infrastructure component significant to program delivery wasn't certified by the manufacturer as
           compliant, and certification or replacement with a compliant version isn't expected.

External Interfaces: Risks related to data exchanges including exchanges with 1) other ED systems; 2) external parties
other than program participants and 3) program participants such as schools, lenders and guaranty agencies.

Blue:      The system meets the “green” criteria, IV&V reviewed the data exchange testing documentation, and there are no
           issues requiring resolution.

Green:     All data exchanges with other ED systems and externalparties were tested with no issues requiring resolution. Data
           exchanges with program participants were tested by simulating the participant’s role (i.e. sending and receiving data
           to and from the system) and testing opportunities are scheduled for program participants.


                                                          23
ED OIG Management Information Report S11-90016
Review of Year 2000 for Processing, Delivery, and Administration of SFA Programs                             July 1999


                                           Exhibit 1 (Continued)

Yellow:    At least one data exchange with ED or external party systems remains to be tested or outstanding issues identified
           in testing need to be resolved. Outstanding issues are scheduled for resolution before September 30, 1999.

Red:       At least one data exchange with ED or external party systems remains to be tested or outstanding
           issues identified in testing need to be resolved.Outstanding issues are not scheduled for resolution before September
           30, 1999 and require immediate management attention.

Time/Resources: Risks related to the ED having sufficient time and resources (staff, funds, management support) to complete
the Y2K project successfully.

Blue:      System has been implemented without outstanding issues or time/resources are adequate to resolve outstanding
           issues. Management has scheduled resolution of outstanding issues and identified necessary resources.

Green:     Time and resources appear sufficient to resolve outstanding issues.

Yellow:    There are significant issues requiring management attention to ensure adequate resources are provided for timely and
           successful completion of the project.

Red:       Management has not committed to providing adequate resources, or there are external limitations thatwould prevent
           adequate resources from being made available.

Validation - Risks related to the timeliness or completeness of the IV&V process.

Blue:      IV&V issued final report that indicated no outstanding issues to be resolved.

Green:     IV&V report issued with minor issues to be resolved. ED implemented recommendations but IV&V has not yet
           reviewed their resolution.

Yellow:    IV&V issued with minor issues to be resolved. ED plans to implement recommendations by September 30, 1999.

Red:       Final IV&V report issued, or IV&V has reported substantial concerns with the system’s validation that have not been
           resolved.

Implementation - Risks related to the timely and successful implementation of the system.

Blue:      The system has been implemented and EDhas completed Year 2000 Closeout Documentation with certifications from
           System Manager, Principal Office Coordinator, Y2K Project Management Team Liaison, and Y2K Contract Support
           Representative.

Green:     The system has been reported as implemented, however System Closeout Documentation has not yet been completed.
           The IV&V report indicates no substantial issues remaining to be resolved.

Yellow:    System has been reported as implemented, however, substantial unresolved validation issues remain outstanding
                                                                                                                       .

Red:       ED has not reported system as implemented or substantial unresolved issues remain outstanding for system
           reported as implemented.




                                                          24
ED OIG Management Information Report S11-90016
Review of Year 2000 for Processing, Delivery, and Administration of SFA Programs         July 1999


                                                 Appendix A
                                              System Descriptions
System Name             System Function

ED Central              EDCAPS is the ED’s Central Automated Processing System maintained by the
Automated               Office of Chief Financial Officer. Its major components are:
Processing
System                  • Grant Administration and Payment System - Supports grant planning, pre-
(EDCAPS)                  award and award management of ED programs, and controls payments for
                          ED's programs.

                        • Financial Management Systems Software - Provides the functionality for
                          general ledger, funds management, and all related reporting.

                        • Contracts and Purchasing Support Software – Supports contract and
                          purchasing processes.

                        • The Recipient System – Serves as the customer database and validates
                          whether an entity is eligible to receive funds.

Dept. of                EDNET consists of ED’s network services provided by the Office of Chief
Education               Information Officer. EDNET includes hardware, software and network
Infrastructure          control data that support ED’s infrastructure. EDNET is responsible for
(EDNET)                 maintaining four categories of systems components: 1) network elements
                        (routers, switches, and hubs); 2) servers; 3) mail messaging; and 4)
                        workstations directly connected to EDNET.

Campus-Based            CBS supports all database maintenance and operations for the Federal Perkins
System (CBS)            Loan, Federal College Work-Study, Supplemental Educational Opportunity
                        Grant, Income Contingent Loan, National Science Scholars, and Default
                        Reduction Assistance programs. The primary mission of CBS is to gather data
                        from postsecondary institutions that participate in these programs, calculate
                        awards according to legislatively prescribedformulae, and enter financial
                        transaction information into ED's accounting system.

Central                 The primary role of the CPS is to process the Free Application for Federal
Processing              Student Aid (FAFSA) through a series of data checks, formula calculations
System (CPS)            and verification checks with other Federal agencies. CPS then prints the
                        information and eligibility results on the Student Assistance Report for mailing
                        to the student or institution. CPS interacts with numerous other Federal
                        systems, thousands of institutions, and millions of students. CPS is also
                        responsible for the development, testing, and distribution of the EDExpress
                        Software, FAFSA Express Software, EDE Express Tutorial Software, and the
                        Pell Payment Software.

                                                      25
ED OIG Management Information Report S11-90016
Review of Year 2000 for Processing, Delivery, and Administration of SFA Programs          July 1999

System Name             System Function

Direct Loan             These two systems jointly are responsible for the servicing of all Direct Loans
Servicing               and maintaining the ledger accounts for all financial transactions associated
System (DLSS)           with the Direct Loan Program.
and Central
Database
(DLCD)

Direct Loan             This system supports the delivery of the Direct Loan Program by providing
Origination/            the front end processing of direct student loans with the participating
Consolidation           institutions of higher education. The system enables the making of direct
System                  student loans to eligible borrowers and then transmits the appropriate booked
(DLOS)                  loan data to the Central Database and Loan Servicing systems. This system
                        also provides for the consolidation of multiple student loans into a single
                        direct consolidation loan.

Federal                 The FFEL system supports the processing, delivery and administration of the
Family                  Federal Family Education Loan Program. FFEL is used to pay interest and
Education               special allowances to lenders and to pay default claims to guarantors. The
Loan System             Debt Collection Subsystem supports collection of defaulted loans from all
(FFEL)                  Title IV loan programs as well as Federal Pell Grant overpayments.

Multiple Data           MDE provides all computer applications needed for the image-based
Entry                   processing of FAFSAs and transmits application data to the CPS.
System
(MDE)
National                NSLDS is used to prescreen Title IV assistance applications to ensure no
Student Loan            ineligible students receive assistance. NSLDS collects student enrollment data
Data System             from schools and distributes it to the guaranty agencies and the Direct Loan
(NSLDS)                 servicer to ensure all loans are repaid in a timely manner. NSLDS calculates
                        cohort default rates for schools, guaranty agencies and lenders to ensure that
                        only quality institutions are participating in Title IV programs. NSLDS allows
                        schools and guaranty agencies access to online functions that assist them in
                        tracking students’Title IV assistance history. NSLDS supports policy and
                        budget research conducted by various offices within ED, as well as the
                        Congressional Budget Office.

Postsecondary           PEPS maintains information on institutions participating in the Title IV
Education               programs. It is used primarily by oversight authorities to certify and audit
Participants            postsecondary institutions’participation within the program. PEPS feeds data
System (PEPS)           to NSLDS, to maintain current participation levels and for calculating default
                        rates; and, to OCFO for maintenance of audits.




                                                      26
ED OIG Management Information Report S11-90016
Review of Year 2000 for Processing, Delivery, and Administration of SFA Programs         July 1999

System Name             System Function

Pell Grant              PELL stores program information on post-secondary institutions and on
Recipient               recipients. It provides fund accountability and control information and source
Financial               data for program budgeting and evaluation.
Management
System (PELL)

Title IV Wide           TIV WAN provides the network link from institutions to ED’s systems, i.e.,
Area Network            CPS, NSLDS, Pell, and DLOS, for delivery of student financial information.
(TIVWAN)




                                                      27
ED OIG Management Information Report S11-90016
Review of Year 2000 for Processing, Delivery, and Administration of SFA Programs   July 1999


                                        Appendix B
                                    Management Response




                                                      28
ED OIG Management Information Report S11-90016
Review of Year 2000 for Processing, Delivery, and Administration of SFA Programs   July 1999


                                        Appendix B
                                    Management Response




                                                      29
